WAIVER
SUPREME COURT OF THE UNITED STATES

20-6701
Benjamin Pedraza III v. Ohio
Supreme Court Case No.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
□ Please enter my appearance as Counsel of Record for all respondents.
□ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

□ I am a member of the Bar of the Supreme Court of the United States.
□ I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be ﬁled by a Bar member.
Signature

Vincent V. Vigluicci

Digitally signed by Vincent V. Vigluicci
Date: 2021.01.22 10:50:40 -05'00'

1/22/2021
(Type or print) Name Vincent V. Vigluicci
□ Mr.
□ Ms.
□ Mrs.
□ Miss
Firm Medina County Prosecutor’s Office
Address 60 Public Square, 3rd Floor
City & State Medina, Ohio
Zip 44256
Phone (330) 723-9536
Email vvv2323@gmail.com
Date:

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC:

Benjamin Pedraza III

